D
R                                                 EMPLOYEE BENEFITS SECURITY
A
F                                                 ADMINISTRATION
T




    Office of Inspector General—Office of Audit




                                                  FURTHER ACTION BY EBSA COULD HELP
                                                  ENSURE PPACA IMPLEMENTATION AND
                                                  COMPLIANCE




                                                                      Date Issued:   September 30, 2011
                                                                   Report Number:      09-11-003-12-121
U.S. Department of Labor                                           September 2011
Office of Inspector General
                                                                   FURTHER ACTION BY EBSA COULD HELP ENSURE PPACA
Office of Audit                                                    IMPLEMENTATION AND COMPLIANCE

BRIEFLY…                                                           WHAT OIG FOUND

                                                                   EBSA has taken significant actions toward implementing
Highlights of Report Number 09-11-003-12-121, issued               PPACA requirements by issuing regulations, conducting
to the Assistant Secretary for Employee Benefits                   research, and providing compliance assistance and outreach.
Security.                                                          However, further action by EBSA could help ensure PPACA
                                                                   implementation and compliance. Specifically, EBSA could
                                                                   work with Treasury and HHS to establish a public timeline for
WHY READ THE REPORT                                                addressing the public comments received on interim-final
The Patient Protection and Affordable Care Act (PPACA) was         PPACA regulations and issuing final regulations.
enacted on March 23, 2010, and amended by the Health Care
and Education Reconciliation Act (HCERA) on                        In addition, EBSA could better leverage enforcement
March 30, 2010. As amended, PPACA is the most significant          resources to assist plans in complying with the new
health care reform bill in decades. It expands health care         regulations. Including compliance with PPACA requirements
coverage to an estimated 31 million uninsured Americans            in its health plan investigations could have resulted in
through a combination of cost controls, subsidies, and             identifying areas where plans, sponsors, and insurers needed
mandates. PPACA is estimated to cost $848 billion over a           technical assistance.
10-year period.
                                                                   Furthermore, as required by PPACA, EBSA should provide
PPACA will affect nearly every element of our health care          HHS with the results of a survey of benefits typically
system including employers, both large and small. According        covered by employers that is sufficiently broad to enable
to employee benefits industry sources, PPACA will have the         HHS to determine benefits provided under a typical
most significant impact on employer-sponsored health plans         employer plan. EBSA was unable to state that the report it
since the enactment of the Employee Retirement Income              provided HHS was broad enough to encompass all
Security Act of 1974 (ERISA) more than 30 years ago.               benefits EBSA considered to be typically covered by
PPACA would impose requirements on the type of health care         employers. Moreover, EBSA did not address all benefits
coverage employers must offer including:                           HHS requested. Without this, HHS may not be able to
                                                                   ensure that State Insurance Exchanges offer the
    (a) 	 Covering most adult children up to age 26.               appropriate essential health benefits required by PPACA.
    (b) Elimination of lifetime limits and restrictive annual
          limits.
    (c) 	 Elimination of pre-existing condition exclusions.        Lastly, EBSA should develop a regulation concerning
    (d) Required coverage of certain preventative services         MEWAs under PPACA Section 6604, regarding the
          (e.g., immunizations and infant screenings).             applicability of State law as a means to combat fraud and
                                                                   abuse.
The Employee Benefits Security Administration (EBSA) is
responsible for oversight of health coverage provided by           WHAT OIG RECOMMENDED
employers through the administration and enforcement of the
civil and criminal provisions of Title I of ERISA and related      We made four recommendations to the Assistant Secretary
criminal statutes. EBSA oversees approximately 2.6 million         for Employee Benefits Security:
employer-sponsored health plans covering approximately             1. 	 Work with the Departments of HHS, Treasury, and the
150 million participants and beneficiaries. This includes single        Office of Management and Budget to establish specific
employer plans, multi-employer plans and Multiple Employer              timetables to respond to public comments and issue final
Welfare Arrangements (MEWA)                                             regulations;
                                                                   2. 	 Incorporate PPACA requirements immediately into the
EBSA, in conjunction with the Departments of Treasury                   enforcement program to assist plans in complying with
(Treasury) and Health and Human Services (HHS), has been                PPACA;
working to implement PPACA.                                        3. 	 Provide HHS with the results of a survey of benefits
                                                                        typically covered by employers that is sufficiently broad to
WHY OIG CONDUCTED THE AUDIT                                             enable HHS to determine benefits provided under a
We conducted the audit to determine if EBSA has taken                   typical employer plan; and
action to implement PPACA.                                         4. 	 Proceed with rulemaking relative to PPACA section 6604.

READ THE FULL REPORT                                               The Assistant Secretary for Employee Benefits Security
To view the report, including the scope, methodology, and full     agreed with recommendations 1 and 4. The Assistant
agency response, go to:                                            Secretary, however, did not fully agree to incorporate PPACA
http://www.oig.dol.gov/public/reports/oa/2011/09-11-003-12-        requirements into the enforcement program to help plans with
121.pdf                                                            compliance assistance or take further action to report the
                                                                   results of a survey conducted to determine benefits typically
                                                                   covered by employers.
               U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                       EBSA PPACA Implementation 

                                       Report No. 09-11-003-12-121 

                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective — Has EBSA taken action to implement PPACA? .................................... 5

         Further Action By EBSA Could Help Ensure Implementation and 

         Compliance........................................................................................................... 5


         Finding 1 — EBSA could take additional action to help ensure PPACA 

                     implementation and compliance ....................................................... 5


Recommendations ...................................................................................................... 13


Appendices
         Appendix A Background ..................................................................................... 17

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 19

         Appendix C Acronyms and Abbreviations .......................................................... 21

         Appendix D EBSA Response to Draft Report ..................................................... 23

         Appendix E Acknowledgements ......................................................................... 27





                                                                                           EBSA PPACA Implementation 

                                                                                           Report No. 09-11-003-12-121 

             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                     EBSA PPACA Implementation 

                                     Report No. 09-11-003-12-121 

                                            U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




September 30, 2011

                         Assistant Inspector General’s Report


Phyllis C. Borzi
Assistant Secretary for Employee Benefits Security
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The Patient Protection and Affordable Care Act (PPACA) was enacted on
March 23, 2010, and amended by the Health Care and Education Reconciliation Act
(HCERA) on March 30, 2010. As amended, PPACA is the most significant health care
reform bill in decades. It expands health care coverage to an estimated 31 million
uninsured Americans through a combination of cost controls, subsidies, and
mandates. PPACA is estimated to cost $848 billion over a 10-year period.

The Employee Benefits Security Administration (EBSA) is responsible for the
administration and enforcement of the civil and criminal provisions of Title I of the
Employee Retirement Income Security Act of 1974 (ERISA) and related criminal
statutes. ERISA covers pension plans and welfare benefit plans
(e.g., employment-based medical and hospitalization benefits, and other plans
described in section 3(1) of Title I). To receive favorable tax treatment, plan sponsors
must design and administer their plans in accordance with ERISA. EBSA oversees
more than 718,000 private retirement plans, 2.6 million employer-sponsored health
plans, and similar numbers of other welfare benefit plans covering approximately
150 million participants and beneficiaries.

PPACA had significant impact on ERISA covered employer-sponsored group health
plans. In accordance with PPACA, EBSA, in conjunction with the Department of the
Treasury (Treasury) and its Internal Revenue Service (IRS) and the Department of
Health and Human Services (HHS), issued eight interim-final regulations applicable to
employer-sponsored health coverage:

      (1) Extension of Coverage for Adult Children
      (2) Grandfathered Health Plans
      (3) Pre-existing Condition Exclusions
      (4) Lifetime and Annual Limits
      (5) Rescissions
      (6) Patient Protections
      (7) Coverage of Preventive Services
      (8) Internal Claims and Appeals and External Review.

                                                                        EBSA PPACA Implementation
                                              1                         Report No. 09-11-003-12-121
                                           U.S. Department of Labor – Office of Inspector General



We conducted the audit to answer the question: Has EBSA taken action to implement
PPACA?

To accomplish our audit, we reviewed applicable EBSA policies, procedures, studies,
and surveys from March 23, 2010, (the enactment of PPACA) through
August 31, 2011. We obtained information on enforcement actions taken from
January 1, 2011, the beginning of the plan year PPACA was effective for most plans,
through August 3, 2011. We interviewed officials at EBSA, HHS, the Government
Accountability Office, and the Congressional Research Service to gain an
understanding of PPACA regulations and rulemaking. We also interviewed officials
from the U.S. Chamber of Commerce, the American Federation of Labor and
Congress of Industrial Organizations (AFL-CIO), and various trade organizations. We
reviewed EBSA’s procedures for addressing public comments submitted on EBSA’s
interim-final PPACA regulations and met with interested parties to discuss their
concerns about implementation and compliance.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.

RESULTS IN BRIEF

EBSA has taken significant actions toward implementing PPACA requirements by
issuing regulations and sub-regulatory guidance, conducting research studies and
surveys, and providing compliance assistance and outreach to employers and
plan participants. However, further action by EBSA could help ensure PPACA
implementation and compliance.

Specifically, for interim-final PPACA regulations, EBSA could improve transparency
and better demonstrate its intentions to address the more than 1,900 public comments
submitted on these regulations by working with Treasury and HHS to establish a public
timeline for addressing the public comments and issuing final regulations. DOL, HHS,
and Treasury have the authority to promulgate interim-final rules that they determine
are necessary or appropriate to carry out PPACA provisions. Using this authority due
to time constraints, EBSA issued PPACA interim-final regulations, and did not engage
in a full notice and comment rulemaking normally required by the Administrative
Procedure Act (APA). While EBSA requested and obtained public comments on issued
interim-final PPACA regulations, and intends to address the comments before
finalizing the regulations, EBSA had not worked with HHS and Treasury to establish a
timeline to address the more than 1,900 public comments received. EBSA could
improve transparency and enlighten the public by providing at least an estimated
timeline. EBSA officials stated that they would respond to public comments
appropriately when EBSA finalizes the interim-final regulations. However, EBSA

                                                                   EBSA PPACA Implementation
                                            2                      Report No. 09-11-003-12-121
                                                              U.S. Department of Labor – Office of Inspector General



officials stated they could not provide an estimated date to release final regulations
because EBSA issues these regulations jointly with HHS and Treasury, and EBSA
could not commit for the other agencies.1 Furthermore, EBSA stated that the Office of
Management and Budget. (OMB) would also have to clear the final regulations.

In addition, while EBSA has made significant efforts in providing compliance
assistance, EBSA could better leverage its enforcement resources to assist plans in
implementing PPACA requirements. EBSA has not included reviews of compliance
with PPACA requirements in its health plan investigations. Doing so could have
resulted in identifying areas where plans, sponsors, and health insurers needed
technical assistance. Since January 1, 2011, EBSA initiated 236 health plan
investigations; however, according to EBSA, none of these cases included reviews of
PPACA requirements.

EBSA officials stated they wanted to use an initial compliance assistance approach,
including enforcement grace periods, for PPACA while developing a coordinated,
deliberate approach to PPACA enforcement. EBSA officials also stated that PPACA
compliance reviews would be part of its Fiscal Year 2012 Health Benefits Security
Project.

Furthermore, as required by PPACA, EBSA should provide HHS with a report on
benefits typically covered by employers that is sufficiently broad to enable HHS to
determine benefits provided under a typical employer plan. Specifically, PPACA
requires plans offered under the new State Insurance Exchanges (Exchanges) to
provide benefits equal to those benefits “typically” provided by employer plans.
PPACA requires EBSA to perform a survey to determine the benefits “typically”
covered by employers and provide this information to HHS to help it determine the
medical benefits the Exchanges must provide. To meet this requirement, EBSA used
data from the National Compensation Survey (NCS) conducted annually by the
Bureau of Labor Statistics (BLS). The NCS, a comprehensive survey of employer
information, provides data on employment-based health care benefits. However,
EBSA could not state that the survey was broad enough to cover all benefits EBSA
might consider “typically” covered by employers. Moreover, the survey did not
address all benefits for which HHS requested information. Without complete survey
information from EBSA, HHS may not be able to ensure that the essential health
benefits provided by the Exchanges under PPACA are equal to the benefits provided
under a typical employer plan as required by PPACA. Furthermore, the lack of
information from EBSA regarding benefits employers typically cover may also affect
parties’ opportunity for public comment on HHS’ required proposed rule defining
essential health benefits.

EBSA officials believed they used the best information available and what they
provided to HHS met the PPACA legislative requirements, particularly since HHS

1
  The three Departments are required to coordinate interpretations and enforcement activities under Part 7 of ERISA, pursuant to an
Inter-Agency Memorandum of Understanding. See 64 FR 70164 (December 15, 1999). 


                                                                                             EBSA PPACA Implementation
                                                                3                            Report No. 09-11-003-12-121
                                          U.S. Department of Labor – Office of Inspector General



would use the EBSA report as only one of many sources to determine essential
medical benefits the Exchanges would provide.

Lastly, PPACA enables DOL to promulgate regulations addressing fraudulent multiple
employer welfare arrangements (MEWA). Historically, MEWAs have been a difficult
enforcement issue for EBSA, and issuing regulations under these provisions may
alleviate the difficulties. To implement these provisions, EBSA has drafted and
cleared proposed regulations (1) allowing it to issue cease and desist, and summary
seizure orders with respect to abusive MEWAs, and (2) requiring registration of
MEWAs. However, it has not yet drafted a proposed rule under section 6604 of
PPACA, which authorizes the Department to determine standards, or issue orders,
regarding when persons providing insurance through MEWAs are subject to State law
as a means to prevent fraud and abuse. EBSA states that it took up the other two
rulemaking first because EBSA viewed them as having a higher priority.

We made four recommendations to the Assistant Secretary for Employee Benefits
Security as follows: (1) Work with the Departments of HHS, Treasury, and OMB to
establish specific timetables to respond to public comments and issue final regulations;
(2) Incorporate PPACA requirements immediately into the enforcement program to
assist plans in complying with PPACA; (3) Provide HHS with the results of a survey of
benefits typically covered by employers that is sufficiently broad to enable HHS to
determine benefits provided under a typical employer plan; and 4) Proceed with
rulemaking relative to PPACA section 6604.
EBSA RESPONSE

In response, the Assistant Secretary for Employee Benefits Security agreed to engage
in discussions with the other two Departments and OMB regarding timetables to
respond to public comments and issuing final regulations. EBSA did not fully agree to
incorporate PPACA requirements immediately into the enforcement program to assist
plans in complying with PPACA. EBSA believed its approach to enforcing operative
provisions of the PPACA was appropriate, and stated it would phase in PPACA
enforcement as a component part of its FY 2012 Health Benefits Security Project. EBSA
did not agree that EBSA should provide more survey results showing benefits typically
covered by employer plans to HHS. EBSA stated that the April 2011 report to HHS
together with its associated supporting material fully satisfies the requirements of
PPACA. Finally, EBSA agreed to set a reasonable timeline for PPACA section 6604
regulations, taking into account all PPACA priorities. The Assistant Secretary’s entire
response is contained in Appendix D.

OIG CONCLUSION

We accept EBSA’s response to recommendations 1 and 4. However, we continue to
disagree with EBSA’s positions on recommendations 2 and 3. We believe EBSA
misunderstood the OIG’s position regarding its enforcement resources. The OIG did not
question EBSA’s approach to enforcing operative provisions of the PPACA. Instead, it
was the OIG’s position that EBSA could have used enforcement resources already

                                                                  EBSA PPACA Implementation
                                            4                     Report No. 09-11-003-12-121
                                          U.S. Department of Labor – Office of Inspector General



directed at investigating health plans to identify compliance assistance needs rather
than not reviewing compliance with PPACA requirements at all. We are not advocating
additional enforcement actions. EBSA’s response does not state specifically when in
FY 2012 all health plan investigations will include reviews of PPACA requirements. We
continue to believe that generally all reviews of health plans should include compliance
with PPACA requirements as a means to assist plans, sponsors, and insurers with
compliance regardless of whether EBSA intends to take enforcement action or not.

We also continue to believe EBSA should provide HHS with a report on benefits
typically covered by employers that is sufficiently broad to enable HHS to determine
benefits provided under a typical employer plan.

The fact that the ultimate determination is to be made by HHS, potentially using other
sources of information in addition to the DOL survey, perhaps gained from different
perspectives and/or different agencies, has no bearing on the scope of the survey that
EBSA is required to perform under the statute. Since PPACA specifically requires EBSA
to submit to HHS to "inform" its decision on what benefits are typically covered by
employers. If the EBSA survey is not broad enough to cover what EBSA is prepared to
say is the full scope of benefits "typically" provided by employers, then we believe EBSA
has not fulfilled its statutory obligation to assist and inform HHS.

To ensure the understanding of our position, we clarified our discussion of EBSA’s
report and modified recommendation 3 from the draft version of this report.

RESULTS AND FINDINGS

Objective — Has EBSA taken action to implement PPACA?

      Further Action By EBSA Could Help Ensure Implementation and Compliance

Finding 1 — EBSA could take additional action to help ensure PPACA
            implementation and compliance

EBSA has taken significant actions toward implementing PPACA requirements
through issuing eight regulations and sub-regulatory guidance, conducting research
studies and surveys, and providing compliance assistance and outreach to employers
and plan participants. Additionally, EBSA has issued sub-regulatory guidance issued,
including four technical releases, seven model notices, and six sets of Frequently
Asked Questions.

While EBSA has taken significant actions to implement PPACA, further action could
mitigate potential challenges that may affect implementing and complying with PPACA
requirements.




                                                                  EBSA PPACA Implementation
                                            5                     Report No. 09-11-003-12-121
                                          U.S. Department of Labor – Office of Inspector General



EBSA Could Improve Transparency in Response to Public Comments
Received on Interim-Final PPACA Regulations

EBSA could improve transparency and better demonstrate its intentions to address
the more than 1,900 public comments submitted on PPACA regulations by working
with HHS, Treasury, and OMB in an effort to establish a public timeline for reviewing
the public comments and issuing final regulations.

PPACA contained major new requirements for group health plans. To implement these
requirements, EBSA had to develop new regulations dealing with complex issues in a
short amount of time. EBSA also had to develop these regulations jointly with the
Treasury and HHS. Normally, under the APA (5 U.S.C. Subchapter II), issuing new
regulations involves publishing proposed regulations in the Federal Register, obtaining
and reviewing public comments, making changes where necessary, and ultimately
issuing final regulations. This process frequently takes more than a year to complete.
Due to time constraints in implementing PPACA, EBSA took advantage of existing
provisions in Part 7 of ERISA, which grants the authority to issue interim-final
regulations for group health plan coverage where necessary or appropriate. These
interim-final regulations became effective without the consideration of public comment
and compliance is generally required shortly after their issuance. However, EBSA and
the other Departments may make changes in final regulations, as the result of public
comments submitted in response to the interim-final regulations.

EBSA, in conjunction with Treasury and HHS, issued eight interim-final regulations
applicable to employer-sponsored health coverage:

(1) Extension of Coverage for Adult Children
(2) Grandfathered Health Plans
(3) Pre-existing Condition Exclusions
(4) Lifetime and Annual Limits
(5) Rescissions
(6) Patient Protections
(7) Coverage of Preventive Services, and
(8) Internal Claims and Appeals and External Review.

While EBSA, in conjunction with Treasury and HHS, requested and obtained public
comments on all of these regulations, EBSA has not yet worked with the other
Departments to establish a timeline to address and respond to the more than 1,900
public comments received. EBSA officials stated that they have reviewed the public
comments and have addressed many public comments through the issuance of
amendments to the interim-final rules for Grandfathered Health Plans, Internal Claims
and Appeals and External Review, and Preventive Services. In addition, EBSA has
issued sub-regulatory guidance addressing many questions.

However, EBSA officials could not provide a firm date for when they would respond to
other comments through tri-Department final regulations. They stated they must jointly


                                                                  EBSA PPACA Implementation
                                            6                     Report No. 09-11-003-12-121
                                           U.S. Department of Labor – Office of Inspector General


issue the final regulations with HHS and Treasury and clear the regulations with OMB
and this makes estimating a date difficult.

The APA generally requires agencies to publish proposed regulations in the Federal
Register, allow the public and affected organizations an opportunity to comment on
the proposed rule, and then consider those comments in developing and publishing
final regulations. However, section 734 of ERISA authorizes the promulgation of any
interim-final rules the Secretary determines are appropriate to carry out the provisions
of Part 7 of ERISA. Additionally, section 553(b) of the APA states that a general notice
of proposed rulemaking is not required when an agency, for good cause, finds that
notice and public comment thereon are impracticable, unnecessary, or contrary to the
public interest. EBSA and the other Departments determined that the provisions of the
APA that ordinarily require a notice of proposed rulemaking did not apply because of
the specific authority granted by section 734 of ERISA. The agencies also found that,
even if the APA were applicable, it would be impracticable and contrary to the public
interest to delay putting these regulatory provisions in place until the agencies
completed a full public notice and comment process.

Following the issuance of PPACA regulations, EBSA received more than 1,900
comments from the public. EBSA organized the comments into seven categories.
The following table illustrates the amount of public comments EBSA received after
promulgating interim-final regulations on PPACA.

  Table 1: Summary of Public Comments Received on PPACA Interim-Final

                                Regulations 


                                                                               No. of
         PPACA Interim-Final Regulations                Date Issued
                                                                             Comments

  Extension of Coverage For Adult Children                5/13/2010                 82

  Grandfathered Health Plans                        6/17/2010                   1,199
  Amendment to Interim-final Rule- Grandfathered
  Health Plans                                     11/17/2010                       16
  Internal Claims and Appeals and External Review
  Processes                                         7/23/2010                       89
  Amendment to Interim-final Rule- Internal Claims
  and Appeals and External Review Processes         6/24/2011                      123
  Preexisting Condition Exclusions, Lifetime and
  Annual Limits, Rescissions, and Patient
  Protections                                       6/28/2010                      145

  Coverage of Preventive Services                         7/19/2010               261
  Total                                                                         1,915

                                                                   EBSA PPACA Implementation
                                            7                      Report No. 09-11-003-12-121
                                          U.S. Department of Labor – Office of Inspector General



Commenters on these regulations include organizations such as The National
Association of Health Underwriters, American Benefits Council, U.S. Chamber of
Commerce, ERISA Industry Committee, AFL-CIO, New York State Insurance
Department, New York City Department of Health and Mental Hygiene, and national
health insurance companies.

EBSA indicated it plans to respond to these comments, in conjunction with
Treasury and HHS, and fully consider them in the final regulations; however, it has
not established a timeline for this or informed the public of when to expect the
agencies to complete the process.

Though not required, establishing a timeline and informing the public of expected
final regulations would help improve transparency in PPACA rulemaking. The
Administrative Conference of the United States (ACUS), an independent Federal
agency designed to improve Federal administrative procedures, issued some
guidance on this matter. The ACUS stated 2 that when using post-promulgation
comment procedures, agencies should consider whether to include in the Federal
Register notice a commitment to act on any significant adverse comments within a
fixed period of time or to provide for a sunset date for the rule.

While we acknowledge EBSA’s cited time constraints in promulgating PPACA
interim-final regulations and efforts to address specific public comments, EBSA could
better demonstrate its progress to address the more than 1,900 public and industry
comments submitted on these regulations. EBSA could provide a specific timetable to
address all public comments. This would increase transparency in the agency’s
response to public comments and mitigate potential challenges for implementation.

EBSA Could Better Leverage Its Office of Enforcement to Assist Plans in
Implementing and Complying with PPACA Requirements

EBSA could better leverage its enforcement resources to assist plans in implementing
PPACA requirements. EBSA’s Office of Enforcement has not actively monitored plans’
compliance with PPACA requirements. Such monitoring could have resulted in
identifying areas where plans, employers and health insurers needed technical
assistance. Changes by health insurers could potentially impact numerous
employer-sponsored health plans. PPACA requirements were effective for most plans
on January 1, 2011. EBSA, however, did not immediately incorporate PPACA
requirements into all enforcement investigations. This was because EBSA was
developing an approach to PPACA enforcement that initially focused on compliance
assistance. As a result, EBSA did not immediately issue PPACA enforcement
checklists or train investigators on PPACA requirements.

EBSA’s enforcement program detects and corrects ERISA violations and restores
losses to employee benefit plans, including health plans. Since January 1, 2011,

2
      1 CFR s 305.95‐4 

                                                                  EBSA PPACA Implementation
                                           8                      Report No. 09-11-003-12-121
                                         U.S. Department of Labor – Office of Inspector General



EBSA initiated 236 health plan investigations; however, according to EBSA, none of
these cases included reviews of PPACA requirements.

EBSA officials stated they implemented an initial compliance assistance approach,
including enforcement grace periods, for PPACA requirements. EBSA officials stated
enforcement checklists were not necessary immediately since EBSA was
concentrating on compliance assistance, not enforcement. They also stated the
enforcement checklists were completed and circulated to investigators at an
August 10, 2011 training program.

However, EBSA could have leveraged this compliance assistance if it had
incorporated PPACA requirements into its enforcement investigations. If the
investigations found non-compliance with PPACA requirements, EBSA could have
provided technical assistance to plans and health insurers to achieve compliance.
Enforcement investigations also may have been able to provide feedback on areas
plans were having difficulties in complying with PPACA requirements. EBSA could
have added resources and leveraged its compliance assistance efforts by actively
reviewing employer-sponsored health plans compliance with PPACA.

EBSA Should Provide HHS With a Report on Benefits Typically Covered by
Employers as Required by PPACA

EBSA’s report to HHS regarding employer-sponsored coverage was not sufficiently
broad for HHS to determine benefits provided under a typical employer plan. The report
primarily presented health benefit data from the National Compensation Survey (NCS),
conducted annually by BLS. EBSA officials could not confirm that the data in the report
represented benefits typically covered by employers. Moreover, the report did not
include information on all the types of benefits HHS asked EBSA address.

PPACA requires each State to establish an American Health Benefit Exchange
(Exchange) to offer non-group health insurance beginning in calendar year (CY) 2014.
PPACA requires the benefits the Exchanges offer to meet minimum coverage
requirements, including being equal to the scope of benefits provided under a typical
employer plan. While HHS must make the actual determination of benefits each
Exchange must offer, PPACA requires EBSA to conduct a survey of
employer-sponsored coverage to determine the benefits typically covered by employers
and provide a report on the survey to HHS.

To meet this requirement, EBSA used data from the annual NCS. The NCS, a voluntary
survey of employers, provides comprehensive measures of occupational wages,
employment cost trends, and benefit incidence and detailed plan provisions. Annually,
BLS releases data from this survey on the percent of employees offered employment-
based health care benefits and the percent of employees who are actually covered by
such benefits. The NCS also provides details on the provisions of those health care
plans, including what services are covered and what cost-sharing is required by plan



                                                                 EBSA PPACA Implementation
                                           9                     Report No. 09-11-003-12-121
                                           U.S. Department of Labor – Office of Inspector General



participants. Benefits presented include such services as hospital room and board,
surgical procedures, physician office visits, and skilled nursing facility care.
While the NCS currently captures data from about 36,000 employers, including those in
private industry and State and local government across all industries and all
establishment sizes, information on the detailed provisions of employment-based health
care benefits is from a representative sample of about 3,900 private sector employers
annually. From each of these employers, BLS identifies available health plans and
requests copies of written documents describing plan benefits. BLS extracted the
detailed plan provisions presented in the NCS report from approximately 3,200 plan
documents.

To expand on the NCS published benefits, HHS requested coverage and cost sharing
data on 24 additional benefits.

In April 2011, EBSA issued a report to HHS. The report contained detailed data on
selected health benefits coverage by employer-sponsored health plans in the private
sector. The report also presented new data from an analysis of additional health
benefits requested by HHS.

However, EBSA could not state that the survey information it provided to HHS was
sufficiently broad to cover what it considered to be benefits typically covered by
employers as required by PPACA Section 1302(b)(2)(A), which states:

       The Secretary of Labor shall conduct a survey of employer-sponsored
       coverage to determine the benefits typically covered by employers,
       including multiemployer plans, and provide a report on such survey to . . .
       [HHS]

Furthermore, the report did not provide all the information HHS had requested. HHS
specifically requested data on 24 benefits. EBSA requested the data from BLS but,
while BLS did do additional survey work, data on only 12 of the 24 benefits could be
developed under BLS’s survey methodology.

EBSA officials stated that the NCS was very comprehensive and using the data
satisfied the legislative requirement in the PPACA and met HHS’s needs. EBSA further
stated that the report would be only one of many sources HHS would use to determine
benefits under a typical employer plan. Despite these claims, we concluded that to
completely fulfill its statutory obligation under PPACA, EBSA must provide HHS with
survey information that it believes encompasses those benefits typically covered by
employers.

Without this information from EBSA, HHS may not be able to ensure that the scope of
the essential health benefits provided by state exchanges is equal to the scope of
benefits provided under a typical employer plan as required by PPACA. This could
potentially impact millions of Americans and the cost of their insurance. Any benefits not
included as typically offered in an employer-sponsored plan may not be included in

                                                                   EBSA PPACA Implementation
                                            10                     Report No. 09-11-003-12-121
                                          U.S. Department of Labor – Office of Inspector General



essential medical benefits offered through the Exchanges. Any benefit actually included,
although perhaps not typically provided in an employer-sponsored plan will nevertheless
be required in essential benefits and could drive the cost of insurance up. The
Congressional Budget Office (CBO) estimates 8.9 million people will buy insurance on
the Exchanges in 2014, with the number growing to 24 million people in 2021.

In addition, public commenters on the proposed regulation may lack sufficient
information on what benefits are typically covered by employer plans or may incorrectly
assume that EBSA provided HHS with information from a survey that was broad enough
for HHS to determine benefits provided under a typical employer plan.

Even sophisticated employee benefit specialists may misinterpret or imprecisely
describe what EBSA provided to HHS. For example, the May 2, 2011, issue of Deloitte's
Washington Bulletin, a periodic update of legal and regulatory developments relating to
employee benefits stated:

       The Labor Department released a report on the health benefits provided
       under a typical employer plan. The typical benefits will provide a baseline
       for the Department of Health and Human Services in defining "essential
       health benefits" under the Patient Protection and Affordable Care Act
       (PPACA). The PPACA requires that the scope of "essential health
       benefits" be equal to the scope of benefits provided under a typical
       employer plan.

Under PPACA, essential health benefits are to be used as the minimum coverage of the
qualified health care plans in the Exchanges established by each State by CY 2014.
These Exchanges provide the opportunities for health coverage for millions of people
who currently have no health insurance. Without sufficiently broad survey information
from EBSA concerning the benefits typically covered by employers, HHS may not be
able to ensure that the scope of the essential health benefits provided by state
exchanges is equal to the scope of benefits provided under a typical employer plan as
required by PPACA. Furthermore, this could impact affected parties’ opportunity for
public comment on HHS’s required proposed regulation defining essential benefits.

EBSA Should Determine if MEWA regulations are Necessary

PPACA added the following three provisions to ERISA relating to the prevention of fraud
and abuse by multiple employer welfare arrangements: (1) Section 6604 authorizes the
Secretary of Labor to issue regulations to determine when persons engaged in offering
insurance through MEWAs are subject to State law, (2) Section 6605 authorizes the
Secretary to issue cease and desist orders and summary seizure orders with respect to
abusive or financially hazardous MEWAs, and (3) Section 6606 provides for the
registration of MEWAs with the Department of Labor. Although EBSA has submitted to
draft proposed regulations to OMB for implementation of sections 6605 and 6606, as of
the end of the audit, 18 months after enactment of PPACA, it has not begun drafting a
proposal under section 6604. EBSA has stated that it considered the 6605 and 6606
regulations to be a higher priority.

                                                                  EBSA PPACA Implementation
                                           11                     Report No. 09-11-003-12-121
                                          U.S. Department of Labor – Office of Inspector General




MEWAs historically have been a difficult enforcement issue for EBSA. In fact, EBSA
has, for many years, had a National Enforcement Project directed at MEWAs. According
to EBSA, although legitimate organizations can provide MEWAs, they are sometimes
marketed using attractive but actuarially unsound premium structures, which generate
large administrative fees for the MEWAs. In addition, certain promoters will set up
arrangements, which they claim are established pursuant to a collective bargaining
agreement; and therefore, are not MEWAs but legitimate benefit plans free from state
insurance regulations. Often, however, these collective bargaining agreements are
nothing more than shams designed to avoid state insurance regulation.

The impact of MEWAs can be significant. The General Accounting Office has estimated
there were more than 2.5 million participants and beneficiaries in 46 states enrolled in
MEWAs.

EBSA could help alleviate the MEWA issue by proceeding with a rulemaking action
under PPACA section 6604.

Conclusion

Overall, EBSA could take further action in its rulemaking, enforcement, reporting on
benefits typically covered by employers, and MEWA regulations to mitigate potential
challenges that may affect implementation and compliance with PPACA requirements.
Taking the recommended actions could help improve transparency to the public;
provide additional compliance assistance to employer, plans and insurers; help enable
HHS to determine essential medical benefits; and help strengthen enforcement over
MEWAs.




                                                                  EBSA PPACA Implementation
                                           12                     Report No. 09-11-003-12-121
                                          U.S. Department of Labor – Office of Inspector General



RECOMMENDATIONS

We recommend that the Assistant Secretary for Employee Benefits Security:

(1) Work with the Departments of HHS, Treasury, and OMB to establish specific
timetables to respond to public comments and issue final regulations.

(2) Incorporate PPACA requirements immediately into the enforcement program
to assist plans in complying with PPACA.

(3) Provide HHS with the results of a survey of benefits typically covered by employers
that is sufficiently broad to enable HHS to determine benefits provided under a typical
employer plan; and

(4) Proceed with a rulemaking to implement PPACA section 6604.

We appreciate the cooperation and courtesies that EBSA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General for Audit




                                                                  EBSA PPACA Implementation
                                           13                     Report No. 09-11-003-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                     EBSA PPACA Implementation
              14                     Report No. 09-11-003-12-121
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                       EBSA PPACA Implementation
                15                     Report No. 09-11-003-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                     EBSA PPACA Implementation
              16                     Report No. 09-11-003-12-121
                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix A
Background

The Patient Protection and Affordable Care Act (PPACA) was enacted on
March 23, 2010, and amended by the Health Care and Education Reconciliation Act
(HCERA) on March 30, 2010. As amended, PPACA is the most significant health care
reform bill in decades. It expands health care coverage to an estimated 31 million
uninsured Americans through a combination of cost controls, subsidies, and mandates.
PPACA is estimated to cost $848 billion over a 10-year period.

PPACA will affect nearly every element of our health care system including employers,
both large and small. According to employee benefits industry sources, PPACA will have
the most significant impact on employer-sponsored health plans since the enactment of
ERISA over 30 years ago. PPACA would impose requirements on the type of health care
coverage that employers must offer including:

(a)   Covering most adult children up to age 26;
(b)   Elimination of lifetime limits and restrictive annual limits;
(c)   Elimination of preexisting condition exclusions; and
(d)   Required coverage of certain preventative services (e.g., immunizations and infant
      screenings).

PPACA reorganizes, amends, and adds to the provisions of the Public Health Service Act
(PHS Act) and ERISA relating to group health plans and health insurance issuers in the
group and individual markets. The Departments of Labor (DOL), Health and Human
Services (HHS), and the Treasury (the Departments) are issuing regulations in several
phases to implement the revisions.

EBSA is responsible for the administration and enforcement of the civil and criminal
provisions of Title I of the Employee Retirement Income Security Act of 1974 (ERISA)
and related criminal statutes. ERISA covers pension plans and welfare benefit plans
(e.g., employment based medical and hospitalization benefits, and other plans
described in section 3(1) of Title I). Plan sponsors must design and administer their
plans in accordance with ERISA. EBSA oversees more than 718,000 private retirement
plans, 2.6 million employer-sponsored health plans, and similar numbers of other
welfare benefit plans covering approximately 150 million participants and beneficiaries.

In accordance with PPACA, the Employee Benefits Security Administration (EBSA), in
conjunction with the Department of the Treasury (Treasury), the Internal Revenue Service
(IRS) and the Department of Health and Human Services (HHS), has issued eight interim-
final regulations applicable to employer-sponsored health coverage for (1) Extension of
Coverage for Adult Children, (2) Grandfathered Health Plans, (3) Pre-existing Condition
Exclusions, (4) Lifetime and Annual Limits, (5) Rescissions, (6) Patient Protections, (7)
Coverage of Preventive Services, and (8) Internal Claims and Appeals and External
Review.


                                                                    EBSA PPACA Implementation
                                             17                     Report No. 09-11-003-12-121
            U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                    EBSA PPACA Implementation
             18                     Report No. 09-11-003-12-121
                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The objective of this audit was to determine if EBSA has taken action to implement
the Patient Protection and Affordable Care Act (PPACA).

Scope

Our scope included all EBSA policies and procedures pertaining to PPACA activities for
March 23, 2010 through August 31, 2011. Additionally, we reviewed prior GAO and CRS
reports on federal rulemaking, and EBSA required research studies and surveys. We
conducted fieldwork at EBSA headquarters in Washington, D.C.
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
Methodology

To accomplish our audit, we reviewed applicable EBSA policies and procedures,
research studies and surveys, and enforcement actions. We interviewed officials at
EBSA, HHS, the Government Accountability Office, and the Congressional Research
Service to gain an understanding of PPACA regulations and rulemaking. We reviewed
public comments submitted on EBSA regulations and met with interested parties to
discuss their concerns about implementation and compliance.

In planning and performing our audit, we considered EBSA’s internal controls that were
relevant to our audit objective. We confirmed our understanding of these controls through
interviews, obtaining, and reviewing PPACA studies, policies, procedures, and
enforcement actions. Our consideration of internal controls relevant to our audit objective
would not necessarily disclose all matters that might be significant deficiencies. Because
of inherent limitations in internal controls, misstatements or noncompliance may
nevertheless occur and not be detected.

In conducting our audit, we did not rely on computer-processed data; therefore, the
sufficiency and reliability of data was not applicable in meeting the audit’s objective.




                                                                    EBSA PPACA Implementation
                                             19                     Report No. 09-11-003-12-121
                                            U.S. Department of Labor – Office of Inspector General




Criteria

We used the following criteria to accomplish our audit:

•          Title I of the Employee Retirement Income Security Act of 1974 


•          The Patient Protection and Affordable Care Act of 2010 


•          The Health Care and Education Reconciliation Act of 2010 


•          The Administrative Procedure Act of 1946 





                                                                    EBSA PPACA Implementation
                                             20                     Report No. 09-11-003-12-121
                                       U.S. Department of Labor – Office of Inspector General



                                                                              Appendix C
Acronyms and Abbreviations

 APA           Administrative Procedure Act

 ACUS         Administrative Conference of the United States

 BLS           Bureau of Labor Statistics

 CBO           Congressional Budget Office

 CRS           Congressional Research Service

 CY            Calendar Year

 DOL           Department of Labor

 EBSA          Employee Benefits Security Administration

 ERISA         Employee Retirement Income Security Act of 1974

 GAO          Government Accountability Office

 HCERA        Health Care and Education Reconciliation Act

 HHS           Department of Health and Human Services

 IRS          Internal Revenue Service

 MEWA          Multiple Employer Welfare Arrangement

 NCS           National Compensation Survey

 NPRM          Notice of Proposed Rulemaking

 OIG           Office of Inspector General

 OMB           Office of Management and Budget

 PHS           Public Health Service

 PPACA        Patient Protection and Affordable Care Act




                                                               EBSA PPACA Implementation
                                        21                     Report No. 09-11-003-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                     EBSA PPACA Implementation
              22                     Report No. 09-11-003-12-121
                                                        U.S. Department of Labor – Office of Inspector General



                                                                                                       Appendix D
EBSA Response to Draft Report




     U.S. Department of Labor                Assistant Sectetary for
                                             Employee Benerits Security Administretlon
                                             Washlr.gtoo. D.C. 202tO




            DATE:                            SEP 29 2011
            MEMORANDUM FOR:              ELLIOT P. LEWIS
                                         Assistant Inspector General for Audit

            FROM:                        PHYLLIS C. BORZI              ~ I;"""
                                                                          (
                                         Assistant Secretary for Employee Benefits Security

            SUBJECT:                     EBSA Response to OIG Performance Audit
                                         Draft Audit Report Number 09-11-003-12- 121

            Thank you for the opportunity to comment on the recommendations in your above
            referenced Performance Audit Repol1 on our implementation of the Patient Protection
            and Affordable Care Act of2010 (PPACA).

           The Employee Benefits Security Administration (EBSA) is responsible for the
           administ ration and enforcement of the civil and criminal provisions of Title I of the
           Employee Retirement Income Security Act of 1974 (ERISA) and related criminal
           statutes. EBSA oversees approximately 718,000 private retirement plans, 2.6 million
           health plans, and similar numbers of other welfare benefit plans, such as those providing
           life or disability insurance. The employee benefit plans under our jurisdiction hold
           approximately $6.5 trill ion in assets and cover approximately 150 million participants
           and beneficiaries.

           When President Barack Obama signed the PPACA, P.L. 111-148 on March 23, 2010, this
           historic health care reform legislation gave more than 32 million Americans access 10
           medical coverage. The PPACA assigned significant new regulatory, enforcement, and
           outreach responsibilities to the Department and more specifically, EBSA. To implement
           the PP ACA, the Department is required to develop and implement over 25 regulations in
           conjunction with the Departments of Health and Human Services (HHS) and Treasury;
           implement Multiple Employer Welfare Arrangements (MEWA) reporting and oversight
           requirements; and design and conduct several health benefit studies, as well as develop
           and implement education, outrcach, and assistance programs and new enforcement
           strategies. Your audit focused on the Department's responsibi lities under the PPACA
           and your objective was to determine whether EBSA has taken action toward the
           implementation of the PPACA.




                                                                                         EBSA PPACA Implementation
                                                          23                             Report No. 09-11-003-12-121
                                                       U.S. Department of Labor – Office of Inspector General




As yo u know, parallel statlllory provisions implementi ng tbe PPACA market refonn
prov isio ns were added to ERISA, the Public Health Service Act, and the Internal
Revenue Codc. Accordi ngly, EBSA shares interpret ive jurisdiction over the PPACA
market refonns wi th the Dcpartment of Health and Huma n Services and the Department
of thc Treasury (i ncluding its Internal Revcnue Service). I Regulations are developed and
issued jointly by the three Depart ments.

OIG's RECOMMEN I>ATIO NS

Rceommendalion 1: \Vork with th e Depa rtmcnts of HHS, T reasury, and the O ffi ce
of Managc mcnt and Bnd gct (OM B) to establish s pecific timetables to respond to
public comments and issue fin al regula tions.

EBSA will engagc in discussions with the other two Departments and OM B regarding
timetab les. These discussions typicall y take place through the semi-annual regu latory
agenda decision-maki ng process.

Reco mmend ation 2. Incorporate I'PAC A requirements inHnediately into the
enforcement program 10 assist plans in compl ying with P I'AC A.

EBSA believes its approach to enforcing operative provisions ofthc PPACA is
appropriate. EBSA officials expla ined to the Inspector General (0 10) auditors that the
three Departmcnts' initial approach to ACA implementation, as stated in Question I of
the September 20, 2010 "Affordable Care Act Implementation FAQs Part I," is to assist
plans, issuers, and others in understanding the ne w ru les and ach ieving compliance rather
                                                                            2
than to immediately begin imposing pena lties for violations of thc ACA. EBSA
officials explained that the agcncy's initial focus was on developing regulations and
related sub-regnlatory guidance. T he age ncy had also engagcd in substantial compliance


I The Ihree DcpanmcnlS are required 10 eoordiMle inlerprelalions and enforcement aCli~ilies under Pan 7
of ER ISA, title XXVII of the Public Health Service Act, and Chapler I 00 of the Internal Re~enue Code
(including the PPACA health n:form provisio~ s, which wen: added 10 Ihose seelions) pursuant to an Inter­
Agency Memorandum of Understanding. See 64 FR 70164 (December 15, 1999).
I Specifica lly, this FAQ slates:
         Ql : Unller the AffordHble C are Act, th ere a rc va r iou s provisions t ll ot ap ply to group hfalt h
          plans a nd llra lt h insura nce iss uers a nd va rious proteNions an d bCllefi ts for cons um ers tho t
         are bcgi nlli ng to take effect or Iha t will b«ome effect ive vn y soon. What is the
          Depa rt ments' bas ic BIIll roaeh 10 implement at ion?
         The Depanments are working together wilh employers, issuers, Slates, providers and other
         stakeholders 10 help them come into compliance wilh Ihe new law and arc working with families
         and indiv iduals to help the m understand the new law and benefit from it, as intended. Compliance
         ass istance is a high priority for the Departmenls. Our approach to implementation is and will
         conlinue to be mar\(ed by an emphasis on assisting (rather Ihan imposing pena lties on) plans,
         issuers and others Ihat are work ing diligently and in good fait h to understand and come into
         compliance with the new law. This approach includes, where appropriate, transilion pro~isions,
         grace periods, safe harbors, and other policies to ensure thalllle new provisions lake effect
         smoothly, minimizing any disruption to existing plans and prllctices.


                                                        2




                                                                                             EBSA PPACA Implementation
                                                         24                                  Report No. 09-11-003-12-121
                                                  U.S. Department of Labor – Office of Inspector General




assistance and outreach Cff0l1S to the public, separatc from invcstigations. 3 At the samc
timc, investigative support tools wcre being developed and investigativc staff were
undergoing training to enforce the new provisions in a consistent, informed manner. As
requested by thc OlG, EBSA providcd the datcs PPACA field training was conducted.
EBSA also developed a comprehensive PPACA enforcement chccklist to promote
consistent invcstigations. The checklists drew in part from the Departments' expertise in
the growing body of regulations and public guidance. After multiple rounds of training,
refinement ofa PPACA enforcement checklist, and internal guidance, EBSA elected to
phase in PPACA enforcement as a component pmt of its FY 2012 Health Benefits
Security Project. Through this national enforcement project EBSA expects to investigate
a large number ofhcalth plans. These investigations will provide meaningful feedback
on PPACA compliance after plans and insurers have had the opportunity to proccss the
implementing regulations and related guidance and benefit from EBSA's extensive
outrcach.

Reco mm endation 3. Delelomin e benefit s ty pically covcred by employe r-sponsored
plans and pl'ovide this 10 HHSo

The DOL's April2011 report to ]-[]-[S ("the report"), together with its associated
suppol1ing material, fully satisfies the requiremen ts of PI'ACA Section 1302(bX2)(A).
This section provides as fo llows:

        The Secretary [onl1-IS] shall ensure that the scope of the essential health benefits
        under paragraph (I) is equal to the scope of benefits offered under a typical
        employer plan, as (Iefermined by the Secretary [of IlHS). To infonn this
        detennination, the Secrctary of Labor shall conduct a survcy of employer­
        sponsored covemge to determine the benefits typically covered by employcrs,
        induding multiemployer plans, and provide a report on such survey to the
        Secretary [ofHHS].

The italicized language clearly requires the Secretary of HHS, rathcr than the Secretary of
Labor, to detennine the scope of benefits offered by a typical employer plan. Thc stated
purpose of the Secretary of Labor's survey is to inform this determination. Congress'
plain intent was for the Secretary of HHS to use the survey in deciding whether a given
benefit is offered under a "typical employer plan."

The survey is based on the National Compensation Survey. conducted regularly by the
Department's Bureau of Labor Statistics. Using a large, nationally representative sample
of employers, the NCS col lects detailed infonnation on whether particular benefits are
induded in employcr health plans. fiy measuring the incidence of a broad range of
diffcrent benefits, the Department's survey will al10w the Secretary of HHS to determine
which are offercd by a typical employer plan.



l Materials provided to OIG indicated that outrtach eVCnlS by EBSA National Office staff(not including
Regional·Office·ted outreach by customer service stafT) exceeded IWO (2) evcnlS per week.


                                                   3




                                                                                      EBSA PPACA Implementation
                                                    25                                Report No. 09-11-003-12-121
                                                U.S. Department of Labor – Office of Inspector General




The 010 faults the report for nOI expressly stating which benefits are "typical."
However, the statute docs not require the DOL to determine a specified threshold of
incidence above which (and only above which) the benefit should be considered "typical"
by l-lHS. DOL's report, by providing detailed data on the incidence of different benefits,
fu lfills the statutory purpose and requirements without taking on the function of the
Secretary of HHS . DOL also disagrees wit h the OIO's assertion that DOL's approach to
the report could impair the public comment process. The report and associated
supporting materials are easily available to the public. Commcntcrs are free to provide
their views on the survey and on what benefits arc offered by a typical employer plan. In
addition, in her press release thanking the DOL following the transmittal of our report,
Secretary Sebelius stated that HHS will be collecting public comments as they consider
how to determine the scope of essential benefits. 4

Recommendation 4. Proceed with rulc making relative to PPACA section 6604.

EBSA will reevaluate its initial determination that regulations under PPACA section
6604 were not immediately necessary to implement the requirements of PP ACA section
6604 in light of other priorities. EBSA will set a reasonable timcline for such
regulations, taking into account all PPACA priorities.

We appreciate the opportunity to provide our comments 10 the draft report and hope that
they wiJ1 be helpful to you in developing a final document.




• See hUp:flwww.hhs.gov/news/press/201Ipresl041201104ISb.hlml.


                                                4




                                                                          EBSA PPACA Implementation
                                                 26                       Report No. 09-11-003-12-121
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix E
Acknowledgements

Key contributors to this report were Ralph McClane (Audit Director), Jason Jelen (Audit
Manager), Chih “Steve” Chiang (Auditor-in-Charge), Richard Donna, Tim Kerschen,
Angela Stewart, and Mary Lou Casazza.




                                                                  EBSA PPACA Implementation
                                           27                     Report No. 09-11-003-12-121
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                     EBSA PPACA Implementation
              28                     Report No. 09-11-003-12-121
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
